       U.S. DEPARTMENT OF THE INTERIOR
       OFFICE OF INSPECTOR GENERAL

            EVALUATION REPORT

             FEE-FOR-SERVICE
              ORGANIZATIONS
     DEPARTMENT OF THE INTERIOR




C-EV-MOA-0016-2005               MARCH 2006
The Department’s working capital fund (43 U.S.C. Chapter 31 §§ 1467, 1468) authorizes
NBC to perform general administrative services for the Department and requires it to
recover all costs. NBC is not allowed to make a profit or retain any excess funds derived
from these services. NBC uses this authority and the Economy Act to perform services for
other federal agencies.

The Government Management Reform Act of 1994 (31 U.S.C. § 501) authorized the
creation of pilot franchise funds. Franchise funds were created so that common
administrative services could be centralized within the U.S. Government and cost savings
could be realized due to economies of scale, diminished overhead, and competition. Six
federal departments were authorized to establish pilot franchise funds to provide services,
such as procurement, personnel, and information technology services. Appendix 2 provides
a list of the departments that operate franchise funds and describes their major business lines
and customers.

The Interior Franchise Fund was established to implement the Government Management
Reform Act. The Department’s appropriation bill for FY1997 (Public Law 104-208, 110
STAT. § 113) authorized the Interior Franchise Fund to retain up to 4 percent of its total
annual income for that year and each subsequent year. These retained funds can be used for
acquisition of capital equipment and improvement and implementation of Departmental
support systems.

                        RESULTS OF EVALUATION
Four DOI entities operate self-sustaining, businesslike fee-for-service organizations. They
are the National Business Center (NBC); GovWorks; the Bureau of Reclamation’s (BOR)
Technical Service Center (TSC); and the U.S. Geological Survey’s (USGS) working capital
fund, which has six operating activities. These organizations provide administrative and
technical services to both the Department and other federal agencies, and they reported
combined revenues of approximately $3 billion in FY2005. We found that the Department
also performed fee-for-service activities using reimbursable agreements under the authority
of the Economy Act. We identified approximately 12,000 active reimbursable agreements
with external entities, totaling approximately $1.3 billion.

We attempted to identify and quantify the benefits related to the Department’s two major
fee-for-service organizations, NBC and GovWorks. Managers of these organizations
claimed monetary and nonmonetary benefits that include:

   ¾ Use of approximately $22 million in GovWorks retained income to fund
     Departmental initiatives.

   ¾ Reduction in the Department’s administrative costs due to lower indirect costs and
     achievement of economies of scale.

   ¾ Development of procurement expertise to assist the Department in its procurements.


                                               2
       equipment and improvement and implementation of Departmental support systems.
       GovWorks states that it awarded approximately $1.4 billion in contracts in FY2005.
       Approximately $1.3 billion (93 percent) of these contracts were for other federal
       agencies.

   ¾ TSC is a fee-for-service organization that operates under BOR’s working capital
     fund on a cost reimbursement basis. TSC provides a variety of services in the areas
     of civil engineering, environmental resources, geotechnical services, infrastructure
     services, water resources, and client and technical support. In FY2005, TSC
     provided fee-for-service operations totaling $87.6 million, of which approximately
     $79.7 million (91 percent) represented services to the Department.

   ¾ USGS identified six fee-for-            USGS’ FEE-FOR-SERVICE ACTIVITIES
     service activities that
     operated under its working       1. The National Water Quality Laboratory
                                      2. The Hydrologic Instrumentation Facility
     capital fund in FY2005.          3. The Bureau of Laboratories
     These services are provided      4. National Training Center
     on a cost reimbursement          5. General Services Administration (GSA) Building
     basis. In FY2005, USGS               Fund Delegation
     provided fee-for-service         6.  Central and Western Bureau Drilling Units
     operations totaling $52.5
     million, of which $52 million (98.7 percent) represented services to the Department.

The following chart depicts the total revenue for the four identified fee-for-service entities in
the Department. Because NBC’s and GovWorks’ fee-for-service operations accounted for
99 percent of the Department’s fee-for-service revenue in FY2005, we limited our
identification of benefits to these two organizations.


                        FY2005 Revenue: Fee-for-Service Entities

                 $ in Millions
                                 2,983
                       3,000

                       2,500

                       2,000
                                           1,523
                                                        1,319
                       1,500

                       1,000

                         500                                    88
                                                                        53
                            0
                                 Total   GovWorks       NBC     TSC   USGS




                                                    4
                                       BENEFITS
We requested that NBC and GovWorks provide us a list of the benefits of their fee-for-
service activities. We also requested that they provide documentation to quantify and
substantiate those benefits. In many cases, NBC and GovWorks identified benefits but were
unable to quantify and substantiate the monetary values associated with those benefits.
Below is our discussion of the benefits identified by management.

National Business Center
NBC performs services under authority of the Department’s working capital fund and the
Economy Act and cannot earn income for the Department; it can only recover its costs for
providing services. NBC reported that its primary benefit to the Department is its ability to
lower the cost of services provided. NBC claims that it lowers costs by reducing indirect
costs associated with administrative services and by achieving economies of scale. Further,
NBC stated that external customers have paid to implement new systems.

   ¾ Reduction in Indirect Costs: NBC managers stated that NBC provides direct
     savings to the Department by having other customers share indirect costs. NBC
     cited the E-Payroll Initiative as an example and estimated savings of approximately
     $1.2 million for DOI on the cost to provide payroll services for FY2006. While we
     agree that spreading indirect costs over a wider customer base may reduce the overall
     cost to the Department, NBC did not provide us with documentation supporting the
     estimated $1.2 million reduction in cost. We were unable to substantiate any other
     specific savings for payroll or any other of its business lines.

   ¾ Economies of Scale: NBC managers stated that servicing external clients also
     allows NBC to achieve economies of scale. For example, hosting multiple agencies
     results in reduction of mainframe computer costs. Again, NBC did not provide us
     documentation to substantiate this claim.

   ¾ Systems Implemented: NBC managers stated that external customers paid to
     implement the new E-Travel System in the Federal Financial System and to enhance
     the DOI procurement system. However, DOI chose not to implement these systems
     because DOI’s new FBMS (Financial Business Management System) will provide
     these services. Although DOI may choose to use the E-Travel System or the
     procurement system enhancements in the future, it has not and does not currently
     receive any benefit from these systems.




                                              5
GovWorks

     ¾ Retained Annual Income: The primary benefit that we identified is GovWorks
         ability to retain up to 4 percent of its annual income to fund Departmental initiatives.
         Each of the past 2 years,
         GovWorks made $11 million
         available to the Department from                      GovWorks: FY2005 Operations
         the income generated in those
         years. For example, in FY2005
                                                    $ in Millions
         GovWorks had approximately                                 $44.0
                                                               45
         $44 million in service charge                         40
                                                                               $32.6
         revenue and approximately $32.6                       35
         million in operating expenses.                        30
         The $11.4 million net income                          25

         represents a 35 percent “profit                       20

         margin” for FY2005. DOI used                          15                      $11.4
                                                               10
         the combined total of $22 million
                                                                5
         provided to the Department in
                                                                0
         FYs 2004-2005 to help fund the                             Fee     Expense Benefit
         procurement of the FBMS and                              Revenue
         the Enterprise Services Network.

         We interviewed officials at other departments with franchise funds to determine if
         they had made retained funds available for use by their host departments. Several
         officials told us that their agencies retain excess funds at the franchise fund level and
         use them only to improve the fund's systems and services. None of the officials
         stated that funds were retained and made available to their host departments. The
         following table describes how the other five franchise funds use retained funds:


Department Description of the Use of Retained Funds
Commerce            Maintains its retained funds within the Office of Computer Services franchise fund and
                    uses these funds for business operation and modernization.
Veterans Affairs    Uses its retained funds (or net position) as the operating reserves for its franchise fund.
                    Veterans Affairs uses its retained funds to maintain its business lines without having to
                    request advances from its customers.
Health and Human    Retains no annual income in its franchise fund. Health and Human Services does not
Services            have explicit authorization to retain annual income.
Environmental       Uses retained funds to purchase software licenses and to offset deficits from previous
Protection Agency   years.
Treasury            Retains funds to develop a reasonable operating reserve and improve the Fund’s systems
                    and services. The Department of Treasury’s FY2004 Franchise Fund Accountability and
                    Annual Report states "the operating reserve is critical to the health of the Fund enabling it
                    to (i) weather downturns in business brought about by unforeseen circumstances, (ii) pay
                    for system and process enhancements, and (iii) maintain an adequate cash flow."




                                                     6
   ¾ Professional Expertise with Acquisition Management: GovWorks officials stated
     that the Department benefits by having the professional expertise of its acquisition
     staff readily available. GovWorks claims that its acquisition staff gains experience
     servicing external agencies and then applies that expertise to Department
     acquisitions.

       We found that only a small portion of GovWorks’ acquisition services are devoted to
       the Department. In FY2005, DOI contract awards represented only 7 percent of
       GovWorks total contract activity. Although the Department’s portion of GovWorks
       operations is small, GovWorks officials have stated that they are the only acquisition
       activity within DOI with the resources and experience necessary to lead certain
       procurement efforts, for example, obtaining mission critical systems, such as FBMS.
       GovWorks stated that USGS commended its professionalism and leadership efforts
       in launching that organization’s Geo-Spatial One-Stop project.

       We were unable to quantify or substantiate the extent of this benefit and whether or
       not the Department would have been able to acquire this expertise in the absence of
       GovWorks.

   ¾ Electronic Tracking Systems: GovWorks developed and paid for two electronic
     tracking systems. These included the Business Information Systems (BIS), a
     financial management tracking tool, and GovPay, an electronic invoicing system.
     According to GovWorks, all of its customers, including Department customers,
     benefit from the increased efficiency of these systems. For example, BIS allows the
     client to directly access all financial and project tracking information on a real-time
     basis. Likewise, GovPay allows all GovWorks customers to track the processing of
     its invoices electronically. Prior to the implementation of these systems, GovWorks
     and its clients spent countless hours trying to manually track financial and invoicing
     actions. GovWorks and the Department claim that FBMS, once fully implemented,
     will incorporate BIS and GovPay applications, which will also benefit the
     Department.

POTENTIAL BENEFITS
The Department is considering whether to move NBC’s entire operation into the Interior
Franchise Fund at a future date. If all NBC products and services were included under the
Interior Franchise Fund, the Department could retain up to 4 percent of NBC’s annual
income generated from services provided to external agencies. NBC claimed that the
benefits to the Department and NBC could be significant, based on DOI’s current
experience with GovWorks. For example, GovWorks has contributed $22 million to the
FBMS and Enterprise Services Network projects from retained earnings that would
otherwise have to have been funded by DOI bureaus or additional Congressional
appropriations.

Currently, NBC bases its rates on recovering its costs. To generate the additional funds that
would allow it to retain income for the Department’s benefit, we believe that NBC would


                                              7
have to raise its rates. Such an increase could actually result in fewer customers and a
reduction in expected benefit.


            RISKS ASSOCIATED WITH FEE-FOR-SERVICE
                        ORGANIZATIONS
Recent audits at the Department and other federal agencies have highlighted concerns with
interagency procurement services. Specifically, DOI and other organizations that provided
these services failed to follow procurement laws and regulations. In such cases, both the
providers and recipients of those services suffered significant consequences.

In their desire to attract customers in a competitive environment, fee-for-service providers
sometimes operate without effective internal controls. Without effective internal controls,
the risks associated with these activities may far outweigh any benefits derived. Below we
reiterate some of the risks that were previously brought to management’s attention as a
result of recent and ongoing audits.

DOI Violated Procurement Regulations for DOD Contracts
Problems related to DOI-provided acquisition services to DOD came to light in FY2004. It
was disclosed by the General Services Administration (GSA) that NBC had inappropriately
acquired interrogation services for DOD using an information technology contract.
Subsequently, we conducted an audit of 12 procurements made by DOI for DOD valued at
$81.1 million. Our July 2004 audit report “Review of 12 Procurements Placed Under
General Services Administration Federal Supply Schedules 70 and 871 by the National
Business Center” (Report No. W-EV-OSS-0075-2004) stated that NBC’s contracting
personnel had not followed regulations in procuring interrogation and other services for
DOD. We found that 11 procurements were made outside the scope of work for the GSA
schedules used. Several factors contributed to this issue:

   ¾ Lack of an effective system of policies, procedures, and process controls to ensure an
     equitable and competitive contracting environment that complies with acquisition
     laws and regulations and protects the public interest and resources.

   ¾ Lack of monitoring and oversight by NBC management.

   ¾ Lack of compliance with procurement regulations caused by the inherent conflict in
     a fee-for-service organization when procurement personnel in their eagerness to
     enhance organization revenues have found shortcuts to federal procurement
     procedures and procured services for clients whose own agencies might not have
     done so.




                                              8
These findings were also identified by the Government Accountability Office (GAO) in its
April 2005 report “Interagency Contracting: Problems with DOD’s and Interior’s Orders to
Support Military Operations” (Report No. GAO-05-201).

In 2005, we and the DOD Office of Inspector General (DOD-OIG) began a statutorily
mandated audit of DOD procurements performed by DOI’s fee-for-service organizations. In
a February 2006 briefing to DOI management, the audit team expressed the following
concerns about additional violations of procurement regulations:

NBC may have:

   ¾ Allowed program personnel to play an inappropriate role in the procurement process.
   ¾ Failed to follow Departmental policy before awarding sole-source contracts.
   ¾ Had ineffective control due to its local management philosophy and operating style,
     poor operating procedures, weak organizational structure, and lack of DOI oversight.

GovWorks may have:

   ¾ Used expired funds for contract actions.
   ¾ Inappropriately retained expired funds or funds for which a need no longer existed.
   ¾ Used funds for other than intended purposes.

In short, DOI-awarded contracts may not have been issued in accordance with federal
regulations or in the best interest of the U.S. Government. These actions left DOI and DOD
vulnerable to increased risk that fraud, waste, or abuse could occur and not be detected.
These issues may also result in a disclaimer or qualified opinion for DOI’s FY2006 financial
statements and a material restatement of DOI’s FY2005 financial statements. There is also a
risk that the Department may have violated and may still be violating the Anti-Deficiency
Act.

Similar Issues Found with General Services Administration’s
Procurement Services
DOD-OIG’s July 2005 report “Acquisition: DOD purchases made through the General
Services Administration” identified similar problems with GSA’s management of
procurements. The report stated that:

   ¾ Expiring funds were being “parked” or “banked” at GSA for future purchases
     because the GSA fund was a no-year fund. This practice may have resulted in Anti-
     Deficiency Act violations.

   ¾ Purchases lacked acquisition planning to ensure that contracting through GSA was
     the best option for the U.S. Government.

   ¾ Inadequate interagency agreements outlining terms and conditions of purchase
     existed.



                                             9
GSA’s response to these problems may highlight practices that DOI should consider.
GSA’s Chief Financial Officer (CFO) told us that GSA had to take significant steps to
change the culture within the organization to address these issues. GSA launched its “Get It
Right” campaign to promote adherence to the procurement laws and regulations. To ensure
success of its campaign, senior leadership met on a weekly basis to monitor progress.

The CFO told us that GSA’s challenge is to get the message out to its employees that its
“business is acquisitions” and it provides best value to its customers when it awards and
manages contracts in accordance with laws and regulations. However, the CFO
acknowledged that GSA will have difficulties with some customers who may not agree and
still insist that GSA take shortcuts in the process. In fact, tightening its procedures and
closely adhering to the procurement regulations have been contributory factors in GSA’s
decrease in business over the last year, according to the CFO.

GSA has seen a significant downturn in revenues over the past year as its customer base has
decreased. Projected revenues for FY2006 are over $1 billion less than revenues generated
for FY2005. This reduction has led to the need to reduce staffing, and GSA recently
announced plans to offer cash buyouts and early retirement packages to over 400 employees.
Other factors are also contributing to this decline. For example, GSA has identified that
some of its customers are turning toward in-house procurement organizations rather than
using GSA. Also, some business is being drawn away by increased competition with other
providers such as GovWorks.

Increased Scrutiny on Interagency Procurement
Recently, there has been increased scrutiny of interagency service arrangements. For
example:

   ¾ In November 2005, the Office of Management and Budget’s (OMB) Office of
     Federal Procurement Policy announced an initiative on interagency contracting.

   ¾ In the Defense Authorization Act for FY2006, Congress imposed additional
     requirements on DOD to increase management controls over interagency
     contracting.

   ¾ The Acquisition Advisory Panel, established under the Services Acquisition Reform
     Act, concluded that OMB should review and refine governance processes to ensure
     overall effectiveness of interagency contracting.

   ¾ In FY2005, GAO made interagency contracting a high risk area.

In February 2006, OMB sent out a data call to all federal Chief Acquisition Officers to
identify the scope of interagency contracting within the U.S. Government. In this
memorandum, the Associate Administrator for OMB ’s Office of Federal Procurement
Policy stated, “Interagency contracting requires increased management attention to achieve
the greatest value possible through these transactions.” If DOI plans to continue its fee-for-


                                              10
service operations supporting other agencies, then it will need to increase senior
management attention over how it delivers those services.


                                   CONCLUSION
We have discussed the benefits and reiterated the risks involved in operating fee-for-service
organizations. We hope the Department will use this information to evaluate the relative
benefits and risks of having fee-for-service organizations. As part of such an evaluation, the
Department should consider:

   ¾ Whether NBC and GovWorks are able to quantify and substantiate their claimed
     benefits.

   ¾ Whether the risks incurred for these activities are worth their potential benefits.

   ¾ What improvements in internal controls are required and what additional costs would
     be incurred.

    ¾ Whether the customer base is likely to decrease as the Department tightens controls
      and complies with procurement regulations.

Since this report does not contain any recommendations, a response is not required.
However, we would appreciate being kept apprised of your evaluation and conclusions
concerning fee-for-service organizations. Section 5(a) of the Inspector General Act (5
U.S.C. § App. 1) requires us to list this report in our semiannual report to Congress.

If you have any questions or comments regarding this report, please call me at 202-208-
4252.




                                              11
                                                                                   Appendix 1


         OBJECTIVES, SCOPE, AND METHODOLOGY
Our objectives were to identify the fee-for-service organizations within the Department that
provide services to other federal agencies and to identify the benefits associated with those
activities. For purposes of this evaluation, we defined fee-for-service activities as self-
sustaining, businesslike funds, including working capital funds and the Interior Franchise
Fund, where the bureau or office is authorized to recover fees for services provided to
others. To accomplish our objectives, we requested the bureaus to provide us with revenues
and expenditures for their fee-for-service operations. In addition, we requested bureaus to
provide us with revenues and expenditures of reimbursable agreements with external
organizations (entities outside of the Department). We did not include reimbursable
agreements in our report because the services provided did not meet our definition of fee-
for-service activities. Further, we narrowed our evaluation to only include the benefits
related to NBC and GovWorks because these are the Department’s principal self-sustaining,
businesslike fee-for-service organizations.

We requested NBC and GovWorks to identify the benefits that DOI receives from its fee-
for-service operations. We interviewed Department officials, as appropriate, and obtained
available records supporting claimed benefits. We also interviewed officials and reviewed
prior reports of the other five pilot franchise funds and obtained information on the services
provided by their operations and revenues and expenditures of the funds for FY2005.
Fieldwork for our evaluation was performed from July 22, 2005, to February 27, 2006.

Our evaluation was conducted in accordance with the January 2005, Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.




                                              12
                                                               Appendix 2


FRANCHISE FUND ORGANIZATIONS BY DEPARTMENT
             FISCAL YEAR 2005
                                                Major
                   Total          Funds        Business       Major
Department        Revenue        Retained       Line         Customer
DOI             $1,523,000,000   $11,400,000 Acquisition     DOD
                                             Services
Commerce           $6,797,000      $178,000 Computer         Department
                                             Services        of
                                                             Homeland
                                                             Security
                                                             (DHS)
Veterans         $251,000,000     $4,128,000 Information     Immigration
Affairs                                      Technology      Health
                                                             Service,
                                                             HHS
Health and       $502,000,000 ($16,000,000) Federal          HHS
Human                                       Occupation       components
Services                                    Health           and many
(HHS)                                                        federal
                                                             agencies
                                                             and
                                                             independent
                                                             federal
                                                             entities.
Environmental     $18,000,000    Unavailable Data            DHS
Protection                       in FY 2005 Processing
Agency
Treasury         $780,000,000    $12,000,000 Consolidated/   DOD
                                             Integrated
                                             Admin.
                                             Management




                                  13
